TN
COCKLE

2311 Douglas Street
Omaha, Nebraska 68102-1214
Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850
No. 20-188
ZHIHENG SHENG,
Petitioner,
vs.
DANIEL MICHAEL SNYDER as

Executor of the Estate of James P. Snyder,

Respondent.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION in

the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),

being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,

and this brief contains 4528 words, excluding the parts that are exempted by Supreme Court Rule

33.1(d), as needed.

Subscribed and sworn to before me this 17th day of September, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska
RENEE J. GOSS
My Comm. Exp. September 5, 2023

 

 

Kenae Qutleae? Ondiae te belo

Affiant

40096
